Department of Homeland Security
   Ofﬁce of Inspector General

            Information Technology Management 

              Letter for the United States Coast 

            Guard Component of the FY 2010 DHS 

                  Financial Statement Audit 





OIG-11-80                                            May 2011
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 25028




                                                              Homeland
                                                              Security
                                    MA~ 06101'

                                       Preface

The Department of Romeland Security (DRS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment to
the Inspector General Act of1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency,
and effectiveness within the department.

This report presents the information technology (IT) management letter for the United
States Coast Guard component ofthe FY 2010 DRS financial statement audit as of
September 30,2010. It contains observations and recommendations related to information
technology internal control that were summarized in the Independent Auditors' Report,
dated November 12,2010 and presents the separate restricted distribution report mentioned
in that report. The independent accounting firm KPMG LLP (KPMG) performed the audit
procedures at the Coast Guard component in support of the DRS FY 2010 financial
statements and prepared this IT management letter. KPMG is responsible for the attached
IT management letter dated March 22,2011 and the conclusions expressed in it. We do not
express opinions on DRS' financial statements or internal control or conclusion on
compliance with laws and regulations.


The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                       Assistant Inspector General
                                       Office of Information Technology Audits
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389

March 22, 2011

Inspector General
U.S. Department of Homeland Security
Chief Information Officer
U.S. Coast Guard
Chief Financial Officer
U.S. Coast Guard

Ladies and Gentlemen:
We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS or
Department), as of September 30, 2010 and the related statement of custodial activity for the year
then ended (herein after referred to as “financial statements”). We were also engaged to examine
the Department’s internal control over financial reporting of the balance sheet as of September 30,
2010 and the statement of custodial activity for the year then ended. We were not engaged to audit
the statements of net cost, changes in net position, and budgetary resources as of September 30,
2010 (hereinafter referred to as “other fiscal year (FY) 2010 financial statements”), or to examine
internal control over financial reporting over the other FY 2010 financial statements.
Because of matters discussed in our Independent Auditors’ Report, dated November 12, 2010, the
scope of our work was not sufficient to enable us to express, and we did not express, an opinion on
the financial statements or on the effectiveness of DHS’ internal control over financial reporting of
the balance sheet as of September 30, 2010, and related statement of custodial activity for the year
then ended. Additional deficiencies in internal control over financial reporting, potentially
including additional material weaknesses and significant deficiencies, may have been identified and
reported had we been able to perform all procedures necessary to express an opinion on the
financial statements or on the effectiveness of DHS’ internal control over financial reporting of the
balance sheet as of September 30, 2010, and related statement of custodial activity for the year then
ended; and had we been engaged to audit the other FY 2010 financial statements, and to examine
internal control over financial reporting over the other FY 2010 financial statements.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and
correct misstatements on a timely basis. A significant deficiency is a deficiency, or a combination
of deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. A material weakness is a deficiency, or a
combination of deficiencies, in internal control, such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis.
The United States Coast Guard (Coast Guard or USCG) is a component of DHS. During our audit
engagement, we noted certain matters in the areas of information technology (IT) configuration
management, security management, access controls, and segregation of duties with respect to Coast
Guard’s financial systems information technology (IT) general controls, which we believe
contribute to an IT material weakness at the DHS level. These matters are described in the IT
General Control and Financial System Functionality Findings and Recommendations by Audit Area
section of this letter.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
The material weakness described above is presented in our Independent Auditors’ Report, dated
November 12, 2010. This letter represents the separate limited distribution letter mentioned in that
report.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through a Notice of Finding and Recommendation (NFR).
Because of its inherent limitations, internal control over financial reporting may not prevent, or
detect and correct misstatements. Also, projections of any evaluation of effectiveness to future
periods are subject to the risk that controls may become inadequate because of changes in
conditions, or that the degree of compliance with the policies or procedures may deteriorate. We
aim to use our knowledge of Coast Guard gained during our audit engagement to make comments
and suggestions that are intended to improve internal control over financial reporting or result in
other operating efficiencies. We have not considered internal control since the date of our
Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key Coast Guard financial systems and IT infrastructure within the scope of our
engagement to audit the FY 2010 DHS financial statements in Appendix A; a listing of the FY 2010
IT Notices of Findings and Recommendations at Coast Guard in Appendix B; and the status of the
prior year NFRs and a comparison to current year NFRs in Appendix C; and Coast Guard
management’s written response in Appendix D. Our comments related to certain additional matters
have been presented in a separate letter to the Office of Inspector General and the Coast Guard
Chief Financial Officer.
Coast Guard’s written response to our comments and recommendations, presented in Appendix D,
has not been subjected to auditing procedures and, accordingly, we express no opinion on it.
This communication is intended solely for the information and use of DHS and Coast Guard
management, DHS Office of Inspector General, U.S. Office of Management and Budget, U.S.
Government Accountability Office, and the U.S. Congress, and is not intended to be and should not
be used by anyone other than these specified parties.

Very truly yours,
                                    Department of Homeland Security 

                                       United States Coast Guard 

                                Information Technology Management Letter
                                           September 30, 2010

                     INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                           TABLE OF CONTENTS

                                                                                                      Page

 Objective, Scope, and Approach                                                                         1


 Summary of Findings and Recommendations                                                                 2


 IT General Controls and Financial System Functionality Findings                                         4


 Findings and Recommendations                                                                            4

 Related to IT Financial Systems Controls:                                                               4

     Configuration Management                                                                            4

     Access Controls                                                                                     5

     Segregation of Duties                                                                               5

     Security Management                                                                                 5

          After-Hours Physical Security Testing                                                          5

          Social Engineering Testing                                                                     6

 Related to Financial System Functionality                                                               8


 Application Controls                                                                                    9


 Management’s Comments and OIG Response                                                                  9





                                                APPENDICES
Appendix                                          Subject                                             Page

           Description of Key Coast Guard Financial Systems and IT Infrastructure within the Scope

   A                                                                                                   10
           of the FY 2010 DHS Financial Statement Audit 

   B       FY 2010 Notices of IT Findings and Recommendations at Coast Guard                           13 

              � Notice of Findings and Recommendations – Definition of Severity Ratings 
              14
           Status of Prior Year Notices of Findings and Recommendations and Comparison to
   C                                                                                                   36

           Current Year Notices of Findings and Recommendations at Coast Guard 


   D       Management’s Comments                                                                       38 





           Information Technology Management Letter for the United States Coast Guard 

                       Component of the FY 2010 Financial Statement Audit 

                                 Department of Homeland Security 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2010

OBJECTIVE, SCOPE, AND APPROACH 

  We were engaged to audit DHS’ balance sheet as of September 30, 2010 and the related statement of
  custodial activity for the year then ended, we performed an evaluation of information technology
  general controls (ITGC) at Coast Guard, to assist in planning and performing our audit.

  The Federal Information System Controls Audit Manual (FISCAM), issued by the Government
  Accountability Office (GAO), formed the basis of our ITGC evaluation procedures. The scope of the
  ITGC evaluation is further described in Appendix A. FISCAM was designed to inform financial
  auditors about IT controls and related audit concerns to assist them in planning their audit work and to
  integrate the work of auditors with other aspects of the financial audit. FISCAM also provides
  guidance to IT auditors when considering the scope and extent of review that generally should be
  performed when evaluating general controls and the IT environment of a federal agency. FISCAM
  defines the following five control functions to be essential to the effective operation of the ITGC
  environment.

  �	   Security Management (SM) – Controls that provide a framework and continuing cycle of activity
       for managing risk, developing security policies, assigning responsibilities, and monitoring the
       adequacy of computer-related security controls.
  �	   Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
       programs, equipment, and facilities) to protect against unauthorized modification, loss, and
       disclosure.
  �	   Configuration Management (CM) – Controls that help to prevent the implementation of
       unauthorized programs or modifications to existing programs.
  �	   Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
       structure to prevent one individual from controlling key aspects of computer-related operations,
       thus deterring unauthorized actions or access to assets or records.
  �	   Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
       without interruption, or with prompt resumption, when unexpected events occur.

  To complement our ITGC audit procedures, we also performed technical security testing for key
  network and system devices. The technical security testing was performed within a select Coast
  Guard facility, and focused on test, development, and production devices that directly support Coast
  Guard’s financial processing and key general support systems. Limited social engineering and after-
  hours physical security testing was also included in the scope of technical security testing.

  Application controls were not tested for the year ending September 30, 2010 due to the nature of
  prior-year audit findings.




        Information Technology Management Letter for the United States Coast Guard 

                    Component of the FY 2010 Financial Statement Audit 

                                         Page 1
 

                                 Department of Homeland Security 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2010

SUMMARY OF FINDINGS AND RECOMMENDATIONS 

  During fiscal year (FY) 2010, Coast Guard took corrective action to address nearly half of the prior
  year IT control weaknesses. For example, Coast Guard made improvements by strengthening its
  system security settings over some of its systems at the USCG Finance Center, strengthening account
  management and configuration management controls over the Workflow Imaging Network System
  (WINS), and improved the data center controls at the USCG Finance Center (FINCEN). However,
  during FY 2010, we continued to identify IT general control weaknesses at Coast Guard. The most
  significant weaknesses from a financial statement audit perspective are related to the controls over
  authorization, development, implementation, and tracking of IT scripts at FINCEN. These IT control
  deficiencies limited Coast Guard’s ability to ensure that critical financial and operational data were
  maintained in such a manner to ensure confidentiality, integrity, and availability. In addition, these
  deficiencies negatively impacted the internal controls over Coast Guard financial reporting and its
  operation and we consider them to contribute to a material weakness at the Department level under
  standards established by the American Institute of Certified Public Accountants. In addition, based
  upon the results of our test work, we noted that the Coast Guard did not fully comply with the
  Department’s requirements under the Federal Financial Management Improvement Act (FFMIA).
  In FY 2010, our IT audit work identified 28 IT findings, of which ten were repeat findings from the
  prior year and 18 were new findings. In addition, we determined that Coast Guard remediated eight
  IT findings identified in previous years. Specifically, the Coast Guard took actions to improve
  aspects of its user recertification process, data center physical security, and scanning for system
  vulnerabilities. The Coast Guard’s remediation efforts have enabled us to expand our test work into
  areas that previously were not practical to test, considering management’s acknowledgment of the
  existence of control deficiencies. Most of the new findings relate to IT systems that were added to
  our examination scope this year.
  Collectively, these findings represent deficiencies in four of the five FISCAM key control areas. The
  FISCAM areas impacted included Security Management, Access Control, Segregation of Duties, and
  Configuration Management. We also considered the effects of financial systems functionality when
  testing internal controls since key Coast Guard financial systems are not compliant with FFMIA and
  are no longer supported by the original software provider. Financial system functionality limitations
  add to the challenge of addressing systemic internal control weaknesses and strengthening the control
  environment at the Coast Guard.
  The majority of the findings indicate a lack of properly designed, detailed, and consistent guidance
  over financial system controls to enforce DHS Sensitive System Policy Directive 4300A requirements
  and National Institute of Standards and Technology (NIST) guidance. Specifically, the findings stem
  from 1) poorly, but improving, designed and operating IT script change control policies and
  procedures, 2) unverified access controls through the lack of user access privilege re-certifications, 3)
  entity-wide security program issues involving civilian and contractor background investigation
  weaknesses, 4) inadequately designed and operating audit log review policies and procedures, 5)
  physical security and security awareness, and 6) role-based training for individuals with elevated
  responsibilities.




        Information Technology Management Letter for the United States Coast Guard 

                    Component of the FY 2010 Financial Statement Audit 

                                         Page 2
 

                               Department of Homeland Security 

                                  United States Coast Guard 

                           Information Technology Management Letter
                                      September 30, 2010

These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and Coast Guard financial data could be exploited thereby compromising the integrity of
financial data used by management and reported in DHS’ consolidated financial statements.
While the recommendations made by us should be considered by Coast Guard, it is the ultimate
responsibility of Coast Guard management to determine the most appropriate method(s) for
addressing the weaknesses identified based on their system capabilities and available resources.




      Information Technology Management Letter for the United States Coast Guard 

                  Component of the FY 2010 Financial Statement Audit 

                                       Page 3
 

                                 Department of Homeland Security 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2010

IT GENERAL CONTROLS AND FINANCIAL SYSTEM
FUNCTIONALITY FINDINGS

  Findings and Recommendations:
  Conditions: During the FY 2010 DHS Financial Statement Audit, Coast Guard segment, we
  identified the following IT and financial system control deficiencies that in the aggregate significantly
  contribute to the material weakness at the department level. Our findings are divided into two
  groupings: 1) financial systems controls and 2) IT system functionality.
  Related to IT Financial Systems Controls
  Configuration Management
  We noted that Coast Guard’s core financial system configuration management process controls are
  not operating effectively, and continue to present risks to DHS financial data confidentiality,
  integrity, and availability. Financial data in the general ledger may be compromised by automated
  and manual changes that are not adequately controlled. For example, the Coast Guard uses an IT
  scripting process to make updates to its core general ledger software as necessary to process financial
  data. During our FY 2010 testing, we noted that some previously identified control deficiencies were
  remediated (particularly with the implementation of a new script change management tool in the
  second half of FY 2010), while other deficiencies continued to exist. The remaining control
  deficiencies vary in significance. However, three key areas that impact the Coast Guard IT script
  control environment are:
  �	 Script testing requirements – Limited testing requirements exist to guide FINCEN staff in the
     development of test plans and guidance over the functional testing that should be performed;
  �	 Script testing environment – Not all script changes were tested in the appropriate test 

     environments, as required; and 

  �	 Script audit logging process – The Coast Guard’s core system databases are logging changes to
     tables as well as successful and unsuccessful logins. However, no reconciliation between the
     scripts run and the changes made to the database tables is being performed to monitor the script
     activities and ensure that all scripts run have been approved.
  In addition, we noted weaknesses in the script change management process as it relates to the Internal
  Control over Financial Reporting (ICOFR) process (e.g., the financial statement impact of the
  changes to FINCEN core accounting system through the script change management process). The
  Coast Guard has not fully developed and implemented procedures to ensure that a script, planned to
  be run in production, has been through an appropriate level of review by a group of individuals
  thoroughly assessing if the script would have a financial statement impact. Furthermore, the rationale
  documenting the impact of the script, whether deemed as having financial impact or not, is not
  documented and retained for internal assessment or audit purposes. Internal controls that ensure the
  reliability of the scripting process must be effective throughout the year, but most importantly during
  the year-end close-out and financial reporting process.




        Information Technology Management Letter for the United States Coast Guard 

                    Component of the FY 2010 Financial Statement Audit 

                                         Page 4
 

                               Department of Homeland Security 

                                  United States Coast Guard 

                           Information Technology Management Letter
                                      September 30, 2010

Access Controls
�	 Procedures surrounding the use of monitoring reports over contracted personnel data have not
   been formally documented.
�	 Procedures over the process of finalizing and implementing entity-wide processes for account
   terminations and related notifications are still in draft and have not been implemented or
   communicated.
�	 Audit log reviews for key financial systems are not being conducted on all key information, and
   are not being retained for self-assessment and audit purposes.
�	 New user access forms are not retained for self-assessment and audit purposes. In addition,
   evidence of supervisory approval of new users was also not available for review.
�	 Access review procedures for key financial applications do not include the review of all user
   accounts to ensure that all terminated individuals no longer have active accounts, that inactive
   accounts are locked, and that privileges associated with each individual are still authorized and
   necessary.
�	 Account re-certifications are not being retained for self-assessment and audit purposes.
Segregation of Duties
�	 Audit log reviews are being performed by the system administrator, who is not considered an
   independent party as required by DHS MD 4300A.

Security Management
�	 Background investigations for all civilian employees have not been completed and Coast Guard’s
   civilian position sensitivity designation process is not in compliance with DHS guidance.
�	 Coast Guard procedures do not include specific guidance for the program managers on how to set
   the correct and consistent risk levels and position sensitivity designations for contract employees.
�	 Policies and procedures for key control areas are not adequately detailed to provide clear and
   complete control descriptions.
�	 There is a lack of a consistent contractor, civilian and military account termination notification
   process for Coast Guard systems .
�	 During our after-hours physical security and social engineering testing, we identified exceptions
   in the protection of sensitive user account information. The table on page 6 details the exceptions
   identified at the various locations tested.

After-Hours Physical Security Testing

We performed after-hours physical security testing to identify risks related to non-technical aspects of
IT security. These non-technical IT security aspects include physical access to media and equipment
that houses financial data and information residing on a Coast Guard employee’s/contractor’s desk,
which could be used by others to gain unauthorized access to systems housing financial information.
The testing was performed at various Coast Guard locations that process and/or maintain financial
data. The table on the following page provides a summary of our testing results.

      Information Technology Management Letter for the United States Coast Guard 

                  Component of the FY 2010 Financial Statement Audit 

                                       Page 5
 

                                    Department of Homeland Security 

                                       United States Coast Guard 

                                Information Technology Management Letter
                                           September 30, 2010

                  Security Weaknesses Observed During After Hours Physical Security Testing
                                                 Coast Guard Locations Tested
                                 Coast Guard Coast Guard Coast Guard                Coast Guard
                                 Headquarters        HQ –            Finance           Finance          Total
                                 (HQ) – Jemal     Transpoint        Center –           Center ­       Exceptions
       Exceptions Noted             (CG-6)         (CG-84)             Main             Annex          by Type
Passwords                               3              4                 2                 0               9
For Official Use Only (FOUO)           11               0                0                 2              13
Documents
Keys/Badges                             0              1                 0                 0              1
Personally Identifiable                 0               1                3                 0              4
Information (PII)
Server Names/IP Addresses               0              0                 0                 3               3
Unsecured Laptops                       1               2                0                 0               3
Unsecured External Drives               4              10                0                 2              16
Terminal root command left              0               0                0                 1              1
unattended
Directory structure map                 0               0                0                 1              1
unsecured
Common Access Cards (CAC)               0              1                 1                 0               2
Secure ID Token PIN                     2              0                 0                 0               2
Active computer left unattended         0              0                 0                 1               1
Total Exceptions by Location           21              19                6                10              56
Source: Coast Guard management, OIG, and KPMG direct observation and inspection of work areas.
Note: Approximately 20-25 desks/offices were examined for each one of the columns in the above table.

    Social Engineering Testing

    Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
    action that is inconsistent with DHS policies, such as divulging sensitive information or
    allowing/enabling computer system access. The term typically applies to deception for the purpose of
    information gathering, or gaining computer system access, as shown in the following table.


 Location               Total Called Total Answered Number of people who provided a password
 Coast Guard HQ               45                 11                                  1
 Coast Guard FINCEN           50                 23                                  7


    Recommendations: We recommend that the Coast Guard Chief Information Officer (CIO) and Chief
    Financial Officer, in coordination with the DHS Office of Chief Financial Officer and the DHS Office
    of the Chief Information Officer, make the following improvements to Coast Guard’s financial
    management systems and associated information technology security program.
    Configuration Management:
    We recommend that the Coast Guard CIO update the scripting policies and procedures to include
    additional and more detailed test documentation, develop training that addresses all aspects of script
    testing (including documentation of test documents) and provide training to appropriate CM staff,
    develop a resource plan (RP) with associated supporting business case(s) to address the database audit
    logging requirements, develop procedures and perform regular account revalidations for the Serena

            Information Technology Management Letter for the United States Coast Guard 

                        Component of the FY 2010 Financial Statement Audit 

                                             Page 6
 

                                Department of Homeland Security 

                                   United States Coast Guard 

                            Information Technology Management Letter
                                       September 30, 2010

application to ensure privileges remain appropriate, and conduct an assessment over the ICOFR
process related to identifying and evaluating scripts that have a financial statement impact.
Access Controls:
�	 Update account management procedures to effectively track and retain user access
    documentation;
�	 Update account management procedures to provide clear guidance regarding the use of user
    access forms and update the access form to include an approval signature line;
�	 Configure Coast Guard applications to enforce the strong password and password history
    requirements described in the DHS MD 4300A Policy Directive and update all impacted system
    documentation accordingly;
�	 Update standard operating procedures to address the audit log review and retention procedures;
�	 Update audit log review procedures within specific procedures to include more detail in recording
    the results of the review of the audit logs;
�	 Continue with ongoing efforts for identifying, designing, and implementing automated tools to
    assist in audit log collection, storage, analysis, and reporting which will further improve
    consistency, timeliness, and accuracy of the reviews when compared with labor and time
    intensive manual processes;
�	 Develop and document an enterprise-wide process that will notify all impacted system owners of
   terminated, transferred, or retired contractor, military, and civilian personnel;
�	 Continue to update procedures to require an annual review of 100% of user accounts for the key
   financial systems and their associated privileges that are greater than read-only to ensure access is
   still required;
�	 Develop a RP with associated supporting business case(s) to address the installation of Service
   Pack 3 on all applicable workstations and/or upgrade the operating systems of these workstations
   to the Coast Guard’s Standard Image; and
�	 Develop a RP with associated supporting business case(s) to address the server operating system
   upgrades to include a technical analysis to ensure server upgrades do not adversely affect system
   operation.
Segregation of Duties:
�	 Implement separation of duties for Coast Guard System audit log reviews.
Security Management:
�	 Update the policies and procedures currently in place to include clear guidance for Program
   Managers and Contracting Officers to assign contractor risk level(s) and position sensitivity
   designation requirements in order to verify that all contracts issued by the Coast Guard include
   the appropriate investigation level requirements;
�	 Perform initial background investigations and re-investigations for civilian employees in
   accordance with DHS directives;



      Information Technology Management Letter for the United States Coast Guard 

                  Component of the FY 2010 Financial Statement Audit 

                                       Page 7
 

                               Department of Homeland Security 

                                  United States Coast Guard 

                           Information Technology Management Letter
                                      September 30, 2010

�	 Update the annual Information Assurance (IA) training to include more robust office “physical
   security” and “clean desk” guidance and instruction and explicitly test individuals during the
   training on these topic areas;
�	 Implement enterprise-wide and site-specific processes for verifying the effectiveness of this
   training via mechanisms such as scheduled and ad hoc desk checks, training follow-ups, and other
   management controls;
�	 Develop, document, communicate, train, test, and continuously maintain policies and procedures
   for the cited IT control and process areas;
�	 Continue to implement Commandant Instruction Information Assurance Professional
   Certification; and
�	 Improve and utilize its manual tracking process until such time that the Direct Access
   implementation is in place.


Related to Financial System Functionality
Conditions: We noted that certain financial system functionality limitations are contributing to
control deficiencies, inhibiting progress on corrective actions for Coast Guard, and preventing the
Coast Guard from improving the efficiency and reliability of its financial reporting processes. Some
of the financial system limitations lead to extensive manual and redundant procedures to process
transactions, to verify the accuracy of data, and to prepare financial statements. Systemic conditions
related to financial system functionality include:
�	 As noted above, Coast Guard’s core financial system configuration management process is not
   operating effectively due to inadequate controls over IT scripts. The IT script process was
   instituted as a solution primarily to compensate for system functionality and data quality issues.
�	 Financial system audit logs are not readily generated and reviewed, as some of the financial
   systems are lacking the capability to perform this task efficiently.
�	 Production versions of operational financial systems are outdated and do not provide the
   necessary core functional capabilities (e.g., general ledger capabilities). Financial systems
   functionality limitations are preventing the Coast Guard from establishing automated processes
   and application controls that would improve accuracy and reliability, and facilitate efficient
   processing of certain financial data such as:
   -   Ensuring proper segregation of duties and access rights such as automating the procurement
       process to ensure that only individuals who have proper contract authority can approve
       transactions or setting system access rights within the fixed asset subsidiary ledger;
   -   Maintaining sufficient data to support Fund Balance with Treasury related transactions,
       including suspense activity;
   -   Maintaining adequate posting logic transaction codes to ensure that transactions are recorded
       in accordance with Generally Accepted Accounting Principles; and
   -   Tracking detail transactions associated with intragovernmental business and eliminating the
       need for default codes such as Trading Partner Identification Number that cannot be easily
       researched.



       Information Technology Management Letter for the United States Coast Guard 

                   Component of the FY 2010 Financial Statement Audit 

                                        Page 8
 

                               Department of Homeland Security 

                                  United States Coast Guard 

                           Information Technology Management Letter
                                      September 30, 2010

 Recommendations: We recommend that the Coast Guard’s Chief Information Officer and Chief
 Financial Officer update the scripting policies and procedures to include additional and more detailed
 test documentation, develop training that addresses all aspects of script testing (including
 documentation of test documents) and provide training to appropriate CM staff, develop a RP with
 associated supporting business case(s) to address the database audit logging requirements, develop
 procedures and perform regular account revalidations for Serena to ensure privileges remain
 appropriate, and conduct an assessment over the ICOFR process related to identifying and evaluating
 scripts that have a financial statement impact.

APPLICATION CONTROLS
 Application controls were not tested for the year ending September 30, 2010, due to the nature of the
 prior-year audit findings.


MANAGEMENT’S COMMENTS AND OIG RESPONSE
 We obtained written comments on a draft of this report from Coast Guard’s Chief Information Officer
 and Chief Financial Officer. Generally, Coast Guard agreed with all of our findings and
 recommendations. Coast Guard has developed a remediation plan to address these findings and
 recommendations. We have included a copy of the comments in Appendix D.

 OIG Response
 We agree with the steps that USCG’s management is taking to satisfy these recommendations.




       Information Technology Management Letter for the United States Coast Guard 

                   Component of the FY 2010 Financial Statement Audit 

                                        Page 9
 

                                                                                           Appendix A
                                   Department of Homeland Security 

                                      United States Coast Guard 

                               Information Technology Management Letter
                                          September 30, 2010




                                             Appendix A
 


Description of Key Coast Guard Financial Systems and IT Infrastructure within the Scope of the FY 2010 

                                   DHS Financial Statement Audit
 





            Information Technology Management Letter for the United States Coast Guard 

                        Component of the FY 2010 Financial Statement Audit 

                                             Page 10
 

                                                                                                Appendix A
                                  Department of Homeland Security 

                                     United States Coast Guard 

                              Information Technology Management Letter
                                         September 30, 2010



Below is a description of significant Coast Guard financial management systems and supporting IT
infrastructure included in the scope of the DHS Financial Statement Audit – Coast Guard Component.

Locations of Audit: Coast Guard HQ in Washington, DC; the Coast Guard FINCEN in Chesapeake,
Virginia (VA); the Operations Supply Center (OSC) in Martinsburg, West Virginia; Aviation Logistics
Center (ALC) in Elizabeth City, North Carolina; and the Pay and Personnel Center (PPC) in Topeka,
Kansas.

Key Systems Subject to Audit:

Core Accounting System (CAS)
CAS is the core accounting system that records financial transactions and generates financial statements for
the Coast Guard. CAS is hosted at the Coast Guard’s FINCEN, in Chesapeake, VA. The FINCEN is the
Coast Guard’s primary data center. CAS is a customized version of Oracle Financials. CAS interfaces with
two other systems located at the FINCEN, WINS and the Financial and Procurement Desktop (FPD).

FPD
The FPD application is used to create and post obligations to the core accounting system. It allows users to
enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD is interconnected with the CAS
system and is located at the FINCEN in Chesapeake, VA.

WINS
WINS is the document image processing system, which is integrated with an Oracle Developer/2000
relational database. WINS allows electronic data and scanned paper documents to be imaged and processed
for data verification, reconciliation and payment. WINS utilizes MarkView software to scan documents and
to view the images of scanned documents and to render images of electronic data received. WINS is
interconnected with the CAS and FPD systems and is located at the FINCEN in Chesapeake, VA.

Joint Uniform Military Pay System (JUMPS)
JUMPS is a mainframe application used for paying USCG active and reserve payroll. JUMPS is located at
the PPC in Topeka, Kansas.

Direct Access
Direct Access is the system of record and all functionality, data entry, and processing of payroll events is
conducted exclusively in Direct Access. Direct Access is maintained by IBM Application On Demand
(IBM AOD) in the iStructure data center facility at Tempe, AZ with a hotsite located in a Qwest data center
in Sterling, VA. Coast Guard personnel that provide system support to Direct Access are located at Coast
Guard HQ and PPC.




         Information Technology Management Letter for the United States Coast Guard 

                     Component of the FY 2010 Financial Statement Audit 

                                          Page 11
 

                                                                                                Appendix A
                                  Department of Homeland Security 

                                     United States Coast Guard 

                              Information Technology Management Letter
                                         September 30, 2010



Global Pay (Direct Access II)
Global Pay provides retiree and annuitant support services. Global Pay is maintained by IBM Application
On Demand in the iStructure data center facility at Tempe, AZ with a hotsite located in a Qwest data center
in Sterling, VA. Coast Guard personnel that provide system support to Global Pay are located at Coast
Guard HQ and PPC.

Shore Asset Management (SAM)
SAM is hosted at the Coast Guard’s Operation System Center (OSC), in Martinsburg, WV. SAM provides
core information about the Coast Guard shore facility assets and facility engineering. The application tracks
activities and assist in the management of the Civil Engineering Program and the Facility Engineering
Program.

Naval and Electronics Supply Support System (NESSS)
NESSS is one of four automated information systems that comprise the family of Coast Guard logistics
systems. NESSS is a fully integrated system linking the functions of provisioning and cataloging, unit
configuration, supply and inventory control, procurement, depot-level maintenance and property
accountability, and a full financial ledger.

Aviation Logistics Management Information System (ALMIS)
ALMIS provides Coast Guard Aviation logistics management support in the areas of operations,
configuration management, maintenance, supply, procurement, financial, and business intelligence.
Additionally, ALMIS covers the following types of information: Financial, Budget, Planning, Aircraft &
Crew Status, Training & Readiness, and Logistics & Supply. The Aviation Maintenance Management
Information System (AMMIS), a subcomponent of ALMIS, functions as the inventory management/fiscal
accounting component of the ALMIS application. The Aircraft Repair & Supply Center (ARSC)
Information Systems Division (ISD) in Elizabeth City, North Carolina hosts the ALMIS application.

CG Treasury Information Executive Repository (CG Tier)
CG TIER is a financial data warehouse containing summarized and consolidated financial data relating
USCG operations. It is one of several supporting applications within CAS Suite designed to support the core
financial services provided by FINCEN. CG TIER provides monthly submissions to DHS Consolidated
TIER.




         Information Technology Management Letter for the United States Coast Guard 

                     Component of the FY 2010 Financial Statement Audit 

                                          Page 12
 

                                                                           Appendix B
                     Department of Homeland Security 

                        United States Coast Guard 

                 Information Technology Management Letter
                            September 30, 2010




                               Appendix B 


    FY 2010 Notices of IT Findings and Recommendations at Coast Guard 





Information Technology Management Letter for the United States Coast Guard 

            Component of the FY 2010 Financial Statement Audit 

                                 Page 13
 

                                                                                                 Appendix B
                                   Department of Homeland Security 

                                      United States Coast Guard 

                               Information Technology Management Letter
                                          September 30, 2010

Notice of Findings and Recommendations – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the DHS
Consolidated Independent Auditor’s Report.

      1 – Not substantial 

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of severity for
consolidated reporting purposes.

These rating are provided only to assist the Coast Guard in the development of its corrective action plans for
remediation of the deficiency.




         Information Technology Management Letter for the United States Coast Guard 

                     Component of the FY 2010 Financial Statement Audit 

                                          Page 14
 

                                                                           Appendix B
                     Department of Homeland Security 

                        United States Coast Guard 

                 Information Technology Management Letter
                            September 30, 2010




                     Department of Homeland Security 

              FY 2010 Information Technology – Coast Guard 

             Notices of Findings and Recommendations – Detail 





Information Technology Management Letter for the United States Coast Guard 

            Component of the FY 2010 Financial Statement Audit 

                                 Page 15
 

                                                                                                                             Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                Notification of Findings and Recommendations – Detail

                                                United States Coast Guard

                                                                                                                     New       Repeat     Severity
NFR #                          Condition                                         Recommendation
                                                                                                                     Issue      Issue      Rating
CG-IT­   We determined that the Contractor, Civilian, and We               recommend       that   Coast     Guard                 X          2
10-01    Military Account Termination Notification Process is Headquarters continue with the following
         still in the planning stages. Requirements still need to efforts:
         be prioritized and cost estimates need to be developed in    1) Develop a resource plan with
         order to obtain funding. Coast Guard still plans on                associated supporting business case(s)
         using Direct Access but will only implement this new               to address account tracking for
         process once Direct Access has been upgraded,                      terminated, transferred, or retired
         however, the implementation date has not yet been                  contractor, military, and civilian
         finalized.                                                         personnel; and,

                                                                       2) Continue existing planning efforts and
                                                                           develop, document, and implement
                                                                           enterprise-wide processes that will
                                                                           notify all impacted system owners of
                                                                           terminated, transferred, or retired
                                                                           contractor, military, and civilian
                                                                           personnel.

CG-IT­   We determined that Coast Guard Headquarters We               recommend        that  Coast   Guard                       X           2
10-02    incorporated Program Manager guidance to the Headquarters continue with the following
         Commandant Instruction, as Enclosure 3, so that the efforts:
         Program Managers could determine the correct risk
         level and position sensitivity designation. An All Coast
                                                                  1) Continue to update existing contracts
         Guard (ALCOAST) message was also released in June
         that stated all contractors must have a favorable             to include the new contractor
         fingerprint check and initiated or completed minimum          background check requirements, and

                      Information Technology Management Letter for the United States Coast Guard 

                                  Component of the FY 2010 Financial Statement Audit 

                                                       Page 16
 

                                                                                                                            Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                                    New       Repeat     Severity
NFR #                          Condition                                        Recommendation
                                                                                                                    Issue      Issue      Rating
         background investigation in order to obtain a Common              perform associated contractor
         Access Card (CAC), effective immediately. This has                background checks;
         resulted in two activities: 1) new contracts will
         incorporate these new requirements immediately; and 2)        2) Continue to include new contractor
         existing contracts will incorporate these new                    background check requirements in
         requirements when new task orders are issued, options            new contracts, and perform associated
         are exercised, contract modifications are made, etc.             background checks; and
         Therefore, based upon the renewal/option date of a
         contract in place prior to the ALCOAST, it could take         3) Develop a resource plan with
         up to two years before all of the contractors throughout         associated supporting business case(s)
         Coast Guard will meet these new requirements.                    to address the need for a reporting
                                                                          mechanism for contractor risk level,
         Furthermore, as part of our analysis, we were unable to          position sensitivity designation, and
         determine if Coast Guard had the capability to                   associated background check.
         consistently produce a current and comprehensive list of
         all Coast Guard contractors to include valid background
         investigation information tied to the correct risk level
         and position sensitivity designation.

CG-IT­   We determined that the Coast Guard will delay issuing We         recommend        that    Coast    Guard               X           2
10-03    any new or updated guidance/instructions until the Joint Headquarters continue with the following
         Reform Team (JRT) report/guidance has been issued efforts:
         and will continue to not comply with the DHS standards
         in regards to civilian background investigation and
         reinvestigations. Coast Guard will continue to vet            1) Develop a resource plan with
         civilian individuals based on the Office of Personnel             associated supporting business case(s)
         Management requirements and associated methodology                to address fixing the organization-
         both in terms of initial background investigations and            wide background investigations
         re-investigations.                                                report; and
                                                                       2) Continue existing efforts to update,
         In addition, Coast Guard has created an organization-             document, and implement the overall
                       Information Technology Management Letter for the United States Coast Guard
 

                                    Component of the FY 2010 Financial Statement Audit 

                                                            Page 17
 

                                                                                                                                Appendix B
                                                Department of Homeland Security 

                                                   United States Coast Guard 

                                            Information Technology Management Letter
                                                       September 30, 2010

                                                                                                                        New       Repeat     Severity
NFR #                           Condition                                            Recommendation
                                                                                                                        Issue      Issue      Rating
         wide automated report that shows the background                       Coast Guard personnel security
         investigation status of each civilian Coast Guard                     process for civilian personnel, based
         employee. However, Coast Guard is currently unable to                 upon the JRT report/guidance.
         consistently generate error-free reports. Coast Guard
         stated that the report could be corrected within 2 years if
         additional resources are provided.

CG-IT­   From the period of October 1, 2009 through the                No recommendation required. Coast Guard           X                      1
10-04    November 29, 2009, adequate guidance was not in               took appropriate corrective action during the
         place for Coast Guard to properly assess the financial        current fiscal year to remediate the exception
         statement impact of changes to the production                 that was identified during this fiscal year.
         environment of CAS, FPD and WINS.

         During this time period, two CAS changes were
         implemented into production without a proper
         assessment of the financial statement impact of the
         proposed changes.

         Upon the effective date of the Financial Impact
         Determination for Data Scripts and System Change
         Requests Memorandum on November 30, 2009, Coast
         Guard began and continued to follow adequate
         guidance to properly assess the financial statement
         impact of changes to CAS, FPD and WINS.

CG-IT­   We determined that some previously noted weaknesses We recommend that Coast Guard:                                         X           3
10-05    were remediated (particularly in the second half of FY
         2010), while other control deficiencies continued to         1) Update the scripting policies and
         exist. The remaining control deficiencies that were             procedures to include additional and
         present throughout FY 2010 vary in significance,                more detailed test documentation;
         however three key areas that impact the Coast Guard
                     Information Technology Management Letter for the United States Coast Guard
 

                                   Component of the FY 2010 Financial Statement Audit 

                                                           Page 18
 

                                                                                                                         Appendix B
                                             Department of Homeland Security 

                                                United States Coast Guard 

                                         Information Technology Management Letter
                                                    September 30, 2010

                                                                                                                 New       Repeat     Severity
NFR #                         Condition                                       Recommendation
                                                                                                                 Issue      Issue      Rating
        Script control environment are: 1) Script Testing
        Requirements; 2) Script Testing Environment; and 3)          2) Develop training that addresses all
        Script Audit Logging Process.                                    aspects of script testing (including
          a. Script Testing Requirements: Limited testing                documentation of test documents)
              requirements exist to guide FINCEN staff in the            and provide training to appropriate
              development of test plans and guidance over the            CM staff;
              functional testing that should be performed.
              Additionally, we determined that there are no          3) Develop a resource plan with
              detailed requirements over the review and testing          associated supporting business
              of functional changes to the data. FINCEN only             case(s) to address the database audit
              tracks and documents the number of transactions            logging requirements;
              updated on scripts that have a financial impact
              and not the detailed dollar amounts associated         4) Develop procedures and perform
              with the financial impact transactions.                    regular account revalidation for
          b. Script Testing Environment: Not all script                  Serena to ensure privileges remain
              changes were tested in the appropriate CAS Suite           appropriate; and
              test environments, as required. FINCEN
              management informed us that the testing                5) Conduct an assessment over the
              environments, CAS4 and LUFSFQT3, were                      ICOFR process related to identifying
              offline for these exceptions due to a refresh of the       and evaluating scripts that have a
              databases and that testers used CAS3 and Alpha             financial statement impact.
              as alternate testing environments instead.
              However, FINCEN management informed
              KPMG that these environments are refreshed on
              an as needed basis and no further information
              could be provided over how frequently the CAS3
              and Alpha databases were refreshed to verify that
              the scripts were adequately tested in the
              appropriate environment. Furthermore, we
              determined that guidance is not provided over the
                    Information Technology Management Letter for the United States Coast Guard 

                                Component of the FY 2010 Financial Statement Audit 

                                                     Page 19
 

                                                                                                            Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                    New       Repeat     Severity
NFR #                         Condition                                      Recommendation
                                                                                                    Issue      Issue      Rating
              use of alternate testing environments for the
              testing of scripts to ensure they are adequately
              tested.
           c. Script Audit Logging Process: The CAS, FPD,
              and Sunflower databases are logging changes to
              tables as well as successful and unsuccessful
              logins. However, no reconciliation between the
              scripts run and the changes made to the database
              tables is being performed to monitor the script
              activities and ensure that all scripts run have been
              approved through Change Management Script
              System or Serena. In addition, we noted that
              FINCEN has not established a formal process to
              monitor and review changes made to the
              Sunflower database including the tables and
              activities modified by the database
              administrators.
        During our test work, we noted weaknesses in the script
        change management process as it relates to the ICOFR
        process (e.g., the financial statement impact of the
        changes to the CAS Suite through the script change
        management process). While a process exists to
        identify, and route a script with potential financial
        statement impact through an assessment process, the
        review and determination over each script is primarily
        performed without structured/detailed procedures in
        place. Furthermore, the rationale documenting the
        impact of the script, whether deemed as having financial
        impact or not, is not documented and retained. In
        addition, within the CAS Suite environment, there are
                     Information Technology Management Letter for the United States Coast Guard 

                                 Component of the FY 2010 Financial Statement Audit 

                                                      Page 20
 

                                                                                                                             Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                                     New       Repeat     Severity
NFR #                          Condition                                         Recommendation
                                                                                                                     Issue      Issue      Rating
         over 200 scripts run on a weekly basis and we noted that
         the financial statement impact assessment is essentially
         performed by a single branch, which has authorized only
         three people to assess the scripts.
CG-IT­   To complement our IT audit testing efforts as part of the We     recommend      that   Coast     Guard                  X           2
10-06    FY 2010 DHS Financial Statement Audit and Audit of Headquarters update the annual IA training to
         ICOFR, we also performed social engineering testing.      include more robust “phishing” and “social
                                                                   engineering” guidance and instruction and
         During our social engineering testing, we were provided explicitly test individuals during the training
         with seven users’ passwords.                              on these topic areas.

CG-IT­   A selection of newly created users of the JUMPS            No recommendation required. Coast Guard           X                      1
10-07    application was made to inspect whether applicable         took appropriate corrective action during the
         documentation was recorded and retained to identify        current fiscal year to remediate the exception
         authorized users. We determined that documentation         that was identified during this fiscal year.
         was not retained for one of the five users selected. We
         performed inquiry procedures with management to
         determine that access was appropriately restricted for
         this user; however, no JUMPS Access Authorization
         Form could be located. On July 20, 2010, management
         remediated the exception by completing a new JUMPS
         Access Authorization Form for the noted user with a
         copy of the form being entered into the Coast Guard’s
         imagining repository.

CG-IT­   We determined that the Coast Guard TIER System             No recommendation required. Coast Guard           X                      1
10-08    password     setting     for    lockout      duration      took appropriate corrective action during the
         (PASSWORD_LOCK_TIME) is only configured to                 current fiscal year to remediate the exception
         0.0005 days (less than one minute). This setting was       that was identified during this fiscal year.
         subsequently changed on 7/19/2010 to a setting of
                      Information Technology Management Letter for the United States Coast Guard 

                                  Component of the FY 2010 Financial Statement Audit 

                                                       Page 21
 

                                                                                                                          Appendix B
                                             Department of Homeland Security 

                                                United States Coast Guard 

                                         Information Technology Management Letter
                                                    September 30, 2010

                                                                                                                  New       Repeat     Severity
NFR #                          Condition                                       Recommendation
                                                                                                                  Issue      Issue      Rating
         “UNLIMITED” which requires an administrator to
         unlock the account. We observed and noted that this
         change was made by Coast Guard.

CG-IT­   To complement our IT audit testing efforts as part of the We recommend that Coast Guard:                             X           2
10-09    FY 2010 DHS Financial Statement Audit and Audit of
         ICOFR, we also performed after-hours physical security
         testing.                                                     1) Update the annual IA training to
                                                                          include more robust office “physical
                                                                          security” and “clean desk” guidance
         We performed after-hours physical security testing to
                                                                          and instruction and explicitly test
         identify risks related to non-technical aspects of IT
                                                                          individuals during the training on
         security.    These non-technical IT security aspects
                                                                          these topic areas; and
         include physical access to media and equipment that
         houses financial data and information residing on a
         Coast Guard employee’s/contractor’s desk, which could        2) Implement enterprise-wide and site-
         be used by others to gain unauthorized access to systems         specific processes for verifying the
         housing financial information.                                   effectiveness of this training via
                                                                          mechanisms such as scheduled and ad
         During our after-hours physical security testing, we             hoc desk checks, training follow-ups,
         identified the following:                                        and other management controls.

            �   9 instances of passwords found near desktop
                computer;
            �   13 instances of FOUO information unsecured;
            �   4 instances of PII unsecured;
            �   16 instances of unsecured external hard drives;
            �   4 instances of unsecured secure token IDs;
            �   3 instances of unsecured laptop computers;
            �   1 instance of a computer terminal root command
                left unattended;
                      Information Technology Management Letter for the United States Coast Guard 

                                    Component of the FY 2010 Financial Statement Audit 

                                                            Page 22
 

                                                                                                                     Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                             New       Repeat     Severity
NFR #                           Condition                                    Recommendation
                                                                                                             Issue      Issue      Rating
             �   1 instance of a network directory structure map
                 left unattended;
             �   1 instance of an active on-session computer left
                 unsecured;
             �   3 instances of IP addresses left unsecured; and
             �   1 USCG Badge left unsecured.

CG-IT­   During our FY 2010 follow-up test work, we We recommend that Coast Guard:                                       X           1
10-10    determined that the Role-Based Industry Standards for
         USCG IA Professionals Commandant Instruction had         1) Continue to implement Commandant
         been renamed Information Assurance Professional             Instruction Information Assurance
         Certifications and was formally issued on March 23,         Professional Certification; and.
         2010. The Instruction stated that all military employees 2) Improve and utilize its manual
         assigned to an IA role must obtain a required               tracking process until such time that
         certification within 12 months of the Commandant            the Direct Access implementation is
         Instruction issue date (i.e., March 23, 2011), and all      in place.
         civilian employees currently in an IA role would be
         granted a waiver within 12 months of the Commandant
         Instruction issue date.

         Although Coast Guard has taken corrective actions to
         remediate this prior year NFR, we determined that since
         the corrective actions are planned for completion by
         March 2011, they were not completed in FY 2010 (i.e.,
         all IA professionals who are required to obtain/maintain
         a professional certification within a year of the date of
         the Instruction did not obtain a certification by the end
         of FY 2010). Our testing noted that eight (8) or 3.9% of
         Coast Guard IA professionals out of the total population
         of 205 have the required certification for their

                      Information Technology Management Letter for the United States Coast Guard 

                                  Component of the FY 2010 Financial Statement Audit 

                                                       Page 23
 

                                                                                                                          Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                                  New       Repeat     Severity
NFR #                          Condition                                       Recommendation
                                                                                                                  Issue      Issue      Rating
         prescribed level on file. Furthermore, we noted that 59
         or 28.7% of Coast Guard IA professionals have not
         provided evidence of industry-based training.         In
         addition, through our testing, we could not determine
         the number of IA professionals that had been granted
         waivers for the certification requirement. We also noted
         that 14 Coast Guard System Administrators were not
         listed as being part of the 205 Coast Guard IA
         professionals.

CG-IT­   During the FY 2010 IT Audit, a selection of users added We recommend that Coast Guard take the            X                      1
10-11    to the CG TIER application for the fiscal year was made follow actions:
         to inspect whether proper documentation was recorded
         and retained for identify authorized users.         We      1) For the user identified during testing,
         determined that documentation was not retained for one          complete and retain all appropriate
         of the two CG TIER users selected. Upon further                 access request documentation; and
         inquiry with management, we were informed that the          2) Update the CG TIER account
         identified CG TIER user was authorized access by the            management procedures to effectively
         Financial Branch Chief; however, the email approval             track and retain user access
         had been lost.                                                  documentation.

CG-IT­   During our FY 2010 test work, we were informed by the We recommend that Coast Guard:                                 X           2
10-12    Coast Guard that an annual review of 100% of the
         Direct Access user accounts with greater than read-only  1) Develop a resource plan with
         access (and their associated privileges) has not been        associated supporting business
         performed for this fiscal year.                              case(s) to address the 100% account
                                                                      review requirement;
         Coast Guard also informed us that all Direct Access      2) Continue to coordinate with the DHS
         accounts created and/or modified during the fiscal year      Chief Information Security Officer’s
         have been reviewed as part of the normal transfer and        (CISO) office to determine and
                      Information Technology Management Letter for the United States Coast Guard 

                                  Component of the FY 2010 Financial Statement Audit 

                                                       Page 24
 

                                                                                                                             Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                                     New       Repeat     Severity
NFR #                           Condition                                        Recommendation
                                                                                                                     Issue      Issue      Rating
         aging processes; however, our testing did not extend to            formalize the frequency and
         validate this statement. Based upon a risk based                   depth/breadth of effective reviews
         decision, the Coast Guard has designed a process to                that address the perceived risk. Based
         review a subset of users that represent the greatest risk          upon the results of these discussions
         to Direct Access. This annual review would cover                   with the DHS CISO’s office, the
         approximately 743 Direct Access users. The scope of                Coast Guard will modify procedures
         the review includes users with payment approval,                   and develop, if applicable, required
         security administrator permissions, all contractors, and           waivers/exceptions to reflect an
         users with update/delete permissions.                              adequate percentage of Direct Access
                                                                            user accounts to be reviewed; and
         However, since this subset review does not cover 100%         3) Continue to use its existing risk-
         of the Direct Access user accounts with greater than               based account review efforts until
         read-only access (and their associated privileges) as              such time that the procedures are
         required by DHS, we consider this NFR to be re-issued.             updated in response to the activities
                                                                            associated with the second
                                                                            recommendation.

CG-IT­   As part of this year’s testing, we identified one security We recommend that Coast Guard:                    X                      1
10-13    configuration management weakness (i.e., outdated
         operating system software) on hosts supporting CAS,           1) Develop a resource plan with
         FPD, and NESSS, as well as those systems’ network                 associated supporting business case(s)
         infrastructure and associated workstations.                       to address the installation of Service
                                                                           Pack 3 on all applicable Windows XP
                                                                           workstations and/or upgrade the
                                                                           operating systems of these
                                                                           workstations to the Coast Guard’s
                                                                           Vista-based Standard Image 6.0;

                                                                       2) Develop a resource plan with
                                                                           associated supporting business case(s)
                      Information Technology Management Letter for the United States Coast Guard 

                                  Component of the FY 2010 Financial Statement Audit 

                                                       Page 25
 

                                                                                                                               Appendix B
                                               Department of Homeland Security 

                                                  United States Coast Guard 

                                           Information Technology Management Letter
                                                      September 30, 2010

                                                                                                                       New       Repeat     Severity
NFR #                           Condition                                         Recommendation
                                                                                                                       Issue      Issue      Rating
                                                                             to address the server operating system
                                                                             upgrades to include a technical
                                                                             analysis to ensure Windows 2003
                                                                             server upgrades do not adversely
                                                                             affect system operation; and

                                                                         3) Based upon the results of
                                                                             Recommendation 1 and
                                                                             Recommendation 2, schedule and
                                                                             perform the upgrades and/or patches
                                                                             of the impacted servers and
                                                                             workstations.

CG-IT­   During our FY 2010 audit test work, we sampled 25 We recommend the Coast Guard’s Operation                     X                      2
10-14    new user accesses for NESSS that were granted during Systems Center (OSC) update the NESSS
         the fiscal year to determine if an access authorization account management Standard Operating
         form had been completed, if the access had been timely Procedure (SOP) to provide clear guidance
         approved by the user’s supervisor, and that the forms regarding the use of user access forms and
         were retained. Based upon our testing, we were unable update the access form to include an approval
         to obtain 9 of the 25 user access forms. In addition, signature line.
         evidence of supervisory approval for 9 of the 25
         sampled users was not available.
CG-IT­   During the FY 2010 audit test work, Aviation Logistics We recommend that Coast Guard:                          X                      1
10-15    Center (ALC) visitor logs for the fiscal year were
         obtained to determine whether proper documentation               1) Develop and maintain a SOP to
         was recorded and retained for the verification of                   ensure that the ALC Data Center
         individuals visiting the ALC Data Center and Facility.              Access Control list is kept current and
         Our testing determined that the ALC Customer Support                that its quarterly review is
         Desk did not properly complete the visitor logs during              documented and maintained; and
         the FY 2010 audit period. Specifically, from a total of
         190 visitor log entries for the fiscal year, 33 visitor log
                       Information Technology Management Letter for the United States Coast Guard
 

                                     Component of the FY 2010 Financial Statement Audit 

                                                               Page 26
 

                                                                                                                               Appendix B
                                             Department of Homeland Security 

                                                United States Coast Guard 

                                         Information Technology Management Letter
                                                    September 30, 2010

                                                                                                                       New       Repeat     Severity
NFR #                          Condition                                        Recommendation
                                                                                                                       Issue      Issue      Rating
         entries did not have the Date-Out and Time-Out fields        2) Re-emphasize to all ALC Support
         completed and 31 visitor log entries did not have the            Desk personnel (through training), the
         Sponsor field completed.                                         importance of properly maintaining
                                                                          the visitor log and to ensure it is filled
         Additionally, the ALC Data Center Access Listing was             out completely and accurately.
         obtained to determine whether a review of the access
         listing was conducted and evidence of the review was
         performed and maintained. Our testing determined that
         the evidence of reviews of the Data Center Access for
         the FY 2010 period was not maintained. Therefore, we
         could not determine that the Data Center Access Listing
         had been properly reviewed during the year.

CG-IT­   During the FY 2010 IT Audit, the AMMIS password           We recommend that the Coast Guard                    X                      1
10-16    configuration settings were obtained and tested to        configure the AMMIS application to enforce
         determine whether they complied with DHS policy. Our      the strong password and password history
         testing determined that the AMMIS subsystem password      requirements described in the DHS
         configuration settings do not comply with all of the      Management Directive 4300A Policy
         required DHS password guidelines. Specifically,           Directive and to update all impacted
         AMMIS password configuration settings did not comply      Certification & Accreditation and system
         with the following DHS password policy:                   documentation accordingly.

            �   Contain a combination of alphabetic, numeric,
                and special characters – the AMMIS password
                requires a combination of alphabetic, numeric,
                or special characters; and

            �   Not be the same as the previous eight passwords.
                The AMMIS password configuration is set to be
                the same as the previous six passwords.
                      Information Technology Management Letter for the United States Coast Guard 

                                  Component of the FY 2010 Financial Statement Audit 

                                                       Page 27
 

                                                                                                                       Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                               New       Repeat     Severity
NFR #                          Condition                                     Recommendation
                                                                                                               Issue      Issue      Rating

         Additionally, our testing determined that the current
         ALMIS System Security Plan (SSP), which includes the
         system level requirements of the AMMIS subsystem,
         states that the implemented password configuration does
         not comply with the current DHS password policy.
         Specifically, the ALMIS SSP states that the password
         cannot be the same as the previous 6 passwords;
         however, DHS guidance states that passwords cannot be
         the same as the previous 8 passwords.

CG-IT­   To complement our IT audit testing efforts as part of the We recommend that Coast Guard implement                 X           2
10-17    FY 2010 DHS Financial Statement Audit and Audit of the recommendations presented in Coast
         ICOFR, we also performed social engineering testing.      Guard IT-NFR-10-06. No additional actions
                                                                   are required.
         During our social engineering testing, we were provided
         with 7 users’ passwords.

         This was the second round of social engineering testing
         conducted as part the FY 2010 DHS Financial Audit and
         Audit of Internal Control over Financial Reporting. Our
         initial testing occurred back on June 30th and July 1st,
         2010. Our initial testing resulted in Coast Guard IT­
         NFR-10-06 being issued. The testing approach and
         scope for the second round of testing was the same as
         the initial round.

         During our 2nd round social engineering testing, we were
         provided with two users’ passwords.


                      Information Technology Management Letter for the United States Coast Guard 

                                  Component of the FY 2010 Financial Statement Audit 

                                                       Page 28
 

                                                                                                                         Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                                 New       Repeat     Severity
NFR #                          Condition                                      Recommendation
                                                                                                                 Issue      Issue      Rating
CG-IT­   Our testing determined that the evidence of reviews over We recommend that Coast Guard:                   X                     2
10-18    the AMMIS audit logs for the FY 2010 audit period was
         not maintained by ALC. Therefore, we could not              1) Update the AMMIS Standard
         determine if the AMMIS audit logs had been properly             Operating Procedures to address the
         reviewed during the year.                                       audit log review and retention
                                                                         procedures; and
         Additionally, our testing determined that reviews of all    2) Implement separation of duties for the
         deactivated AMMIS accounts may not have been                    AMMIS audit log reviews.
         performed and evidence of the reviews was not
         maintained by the ALC. Therefore, we could not
         determine whether deactivated AMMIS accounts had
         been properly monitored and reviewed during the year.

         Lastly, we were informed by the ALC that the AMMIS
         audit logs were not being reviewed by an individual that
         is considered independent to the process. We noted that
         an AMMIS system administrator is responsible for
         reviewing the AMMIS audit logs.

CG-IT­   Our testing determined that evidence of a review and We recommend that Coast Guard:                      X                      2
10-19    recertification of the 11,306 users with “Update”
         privilege in ALMIS was not maintained by the ALC.       1) Develop a resource plan with
         Therefore, we could not determine that ALMIS user           associated supporting business
         accounts had been properly reviewed and recertified         case(s) to address the 100% account
         during the year.                                            review requirement;
                                                                     2) Continue to coordinate with the DHS
                                                                         CISO’s office to determine and
                                                                         formalize the frequency and
                                                                         depth/breadth of effective reviews
                                                                         that address the perceived risk.

                      Information Technology Management Letter for the United States Coast Guard 

                                  Component of the FY 2010 Financial Statement Audit 

                                                       Page 29
 

                                                                                                                               Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                                       New       Repeat     Severity
NFR #                           Condition                                          Recommendation
                                                                                                                       Issue      Issue      Rating
                                                                             Based upon the results of these
                                                                             discussions with the DHS CISO’s
                                                                             office, the Coast Guard will modify
                                                                             procedures and develop, if
                                                                             applicable, required
                                                                             waivers/exceptions to reflect an
                                                                             adequate percentage of ALMIS user
                                                                             accounts to be reviewed; and
                                                                         3) Continue to use its existing risk-
                                                                             based account review efforts until
                                                                             such time that the procedures are
                                                                             updated in response to the activities
                                                                             associated with the second
                                                                             recommendation.

CG-IT­   Our testing determined that the AMMIS Software              We recommend that Coast Guard establish            X                      1
10-20    Change Request Forms were not appropriately                 and follow a management review process to
         authorized. Specifically, for the four AMMIS software       ensure that any new AMMIS Software
         changes made during the fiscal year, two of the software    Change Requests processed will be reviewed
         change request forms were not signed by the Division        by the PC team for the proper/required
         Chief.                                                      signatures.

CG-IT­   During our FY10 audit test work over the Naval and          Coast Guard took appropriate corrective            X                      2
10-21    NESSS recertification process, we noted that 32 users       action to remediate the exception that was
         were assigned the role FLS_USR_ADM_GRP within               identified and no additional corrective actions
         the NESSS application. This role grants the ability to      are required.
         add, modify, and delete user accounts. In addition, two
         of these users were system administrators. This number
         of users with this elevated role was considered excessive
         based upon the ratio of this role to the NESSS user

                      Information Technology Management Letter for the United States Coast Guard 

                                  Component of the FY 2010 Financial Statement Audit 

                                                       Page 30
 

                                                                                                                               Appendix B
                                               Department of Homeland Security 

                                                  United States Coast Guard 

                                           Information Technology Management Letter
                                                      September 30, 2010

                                                                                                                       New       Repeat     Severity
NFR #                           Condition                                        Recommendation
                                                                                                                       Issue      Issue      Rating
         population.

         On October 7, 2010, OSC management remediated the
         condition by reducing the number of users with the
         FLS_USR_ADM_GRP role down to six.

CG-IT­   We determined that OSC had updated the policies and         We recommend that Coast Guard:                                X           2
10-22    procedures for System Administrators and Database
         Administrators to include more detail and instructions         1) Update the SAM and NESSS audit
         on entering sufficient evidence regarding the weekly               log review procedures within the
         non-independent audit log reviews documented and                   Standard Operating Procedures to
         tracked in the ClearQuest Ticketing system. We also                include more detail in the ClearQuest
         noted that the monthly SAM audit log reviews were                  Tickets including recording the
         being conducted by an independent team.                            results of the review of the audit logs;

         Although OSC has taken steps to remediate the prior            2) Implement     similar separation of
         year conditions by updating the policies and                       duties for the NESSS audit log
         completing the monthly independent reviews, we                     reviews as have been implemented for
         determined that the 3 sampled months of SA and DBA                 the SAM audit log reviews; and
         audit log reviews did not have sufficient detail on the
         ClearQuest tickets. Specifically, we identified the            3) Continue with ongoing efforts for
         following:                                                         identifying,       designing,       and
                                                                            implementing automated tools to
             �   1 of the 3 SA monthly reviews did not have a               assist in audit log collection, storage,
                 searchable title;                                          analysis, and reporting which will
             �   2 of the 3 SA monthly reviews did not include              further      improve       consistency,
                 results of the audit log review (i.e., audit logs          timeliness, and accuracy of the
                 had no exceptions.);                                       reviews when compared with labor
             �   3 of the 3 DBA monthly reviews did not list                and time intensive manual processes.
                 the logs that were included in the review; and

                       Information Technology Management Letter for the United States Coast Guard 

                                   Component of the FY 2010 Financial Statement Audit 

                                                        Page 31
 

                                                                                                            Appendix B
                                             Department of Homeland Security 

                                                United States Coast Guard 

                                         Information Technology Management Letter
                                                    September 30, 2010

                                                                                                    New       Repeat     Severity
NFR #                         Condition                                     Recommendation
                                                                                                    Issue      Issue      Rating
            �   3 of the 3 DBA monthly reviews did not have
                results of the audit log reviews.

        As a result of limitations of the underlying operating
        system of the Shore Asset Management System AM
        system:
            � The servers do not automatically alert in the
                event of an incident; and
            � The server operating systems do not
                inherently provide audit reduction and report
                generation capability.

        Furthermore, the OSC has not implemented a
        centralized log solution for audit log reduction and
        reporting, and automated alert notifications.

        NESSS Audit Logs:
        During our FY 2010 test work for the NESSS, we
        noted that daily and weekly audit log reviews are
        performed by the NESSS System Administrator. The
        weekly audit log reviews are documented in the
        ClearQuest system with a running ticket for the
        calendar year. Each week’s review is added to the
        ClearQuest ticket. However, we determined that there
        is not sufficient detail in the ClearQuest ticket in
        recording the results of the review of the audit logs.
        Furthermore, as similar to SAM audit log review
        process listed above, OSC has not implemented a
        centralized log solution for audit log reduction and
        reporting, and automated alert notifications.       In
        addition, the weekly reviews are performed by the
                     Information Technology Management Letter for the United States Coast Guard 

                                   Component of the FY 2010 Financial Statement Audit 

                                                           Page 32
 

                                                                                                                            Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                                    New       Repeat     Severity
NFR #                          Condition                                         Recommendation
                                                                                                                    Issue      Issue      Rating
         NESSS System Administrator, who is not considered
         an independent party as required by DHS MD 4300A.

CG-IT­   During the FY 2010 audit test work, the OSC data We recommend that Coast Guard develop                      X                      1
 10-23   center access listing was obtained in order to determine detailed procedures for:
         whether a review of the access listing was conducted
         and evidence of the review was maintained. OSC               1) Quarterly data center access reviews
         informed us that they perform a review of the data               to include validating that users have a
         center access on a quarterly basis. However, our testing         physical need to access the data floor;
         determined that the evidence of reviews concerning               and
         OSC data center access for FY 2010 was not
         maintained. Therefore, we could not determine whether        2) Methods for maintaining the review
         the OSC data center access listing had been properly             documentation.
         reviewed during the year.

CG-IT­   During prior financial statement audits dating back to We recommend that Coast Guard:                                  X           3
10-24    FY 2003, we noted that the implementation and
         oversight of the Coast Guard’s information security       1) Continue to implement and improve
         controls needed various improvements. In FY 2010,             upon the monitoring of compliance
         continued improvements have been made in the areas of         with DHS, Coast Guard, and
         access controls, entity-level controls, and configuration     Federal security policies and
         management.       Improvements in the IT control              procedures in the areas of script
         environment were identified at each of the Coast Guard        configuration management controls
         financial processing locations where IT audit was             to include the use of the automated
         previously conducted.                                         tools deployed at the FINCEN; and

         However, significant improvements are still warranted        2) Develop and implement corrective
         in the area of script configuration management controls         action plans to address and
         for the key financial systems located at the FINCEN.            remediate the NFRs issued during
         Script configuration management control is the subject          the FY 2010 audit.
         of the significant control deficiencies identified and
                       Information Technology Management Letter for the United States Coast Guard
 

                                     Component of the FY 2010 Financial Statement Audit 

                                                           Page 33
 

                                                                                                                            Appendix B
                                              Department of Homeland Security 

                                                 United States Coast Guard 

                                          Information Technology Management Letter
                                                     September 30, 2010

                                                                                                                    New       Repeat     Severity
NFR #                          Condition                                         Recommendation
                                                                                                                    Issue      Issue      Rating
         recommendations that were developed during the audit.
         Other weaknesses continued to exist, to a lesser extent,
         in the areas of access controls and entity-wide security
         at each of the Coast Guard financial processing
         locations. These continued weaknesses require Coast
         Guard to continue with the implementation of their
         corrective actions plans and monitoring efforts.

         As a result of our audit test work and supported by all
         the IT NFRs issued during the current year, we
         determined that Coast Guard is non-compliant with
         FFMIA.

CG-IT­   During our FY 2010 year-end IT roll-forward audit          The process for obtaining written sign-off on    X                      1
 10-25   testing procedures, we determined that one (1) of the      PIR forms has recently been replaced with an
         five (5) FPD, Production Implementation Request            automated workflow process that eliminates
         (PIR) forms tested was not signed off on by the            the need for written approvals; therefore no
         analyst/submitter/implementer as required per the          additional corrective actions are required.
         FINCEN PIR form.

CG-IT­   During the FY 2010 audit test work, we determined that     We recommend that Coast Guard develop,           X                      2
10-26    ALC policies and procedures for the following control      document, communicate, train, test, and
         areas are not adequately detailed to provide clear and     continuously maintain policies and procedures
         complete control descriptions for each of the following    for the cited control and process areas.
         processes:

            �   Physical Access to the data center and systems
                in the data center;
            �   Access to Program Libraries;
            �   Segregation of Duties in support of the AMMIS

                      Information Technology Management Letter for the United States Coast Guard 

                                  Component of the FY 2010 Financial Statement Audit 

                                                       Page 34
 

                                                                                                                     Appendix B
                                            Department of Homeland Security 

                                               United States Coast Guard 

                                        Information Technology Management Letter
                                                   September 30, 2010

                                                                                                             New       Repeat     Severity
NFR #                         Condition                                      Recommendation
                                                                                                             Issue      Issue      Rating
                application;
            �   AMMIS Audit Log Review and Retention;
            �   Backups and Data Restoration; and
            �   Offsite Storage of Backup media.

CG-IT­   The NESSS’ Oracle verify_function in the SYS schema We recommend that Coast Guard review and         X                      1
10-27    is incorrectly configured and does not include update the Oracle verify_function in the SYS
         verification of special characters for passwords.   schema to include the verification of special
                                                             characters for passwords.

CG-IT­   During our FY 2010 audit test work, we followed up We recommend that Coast Guard continue                       X           1
10-28    with Coast Guard management and were notified that with the PeopleSoft 9.0 upgrade and
         this Direct Access audit logging weakness, noted in FY PeopleSoft Portal implementation.
         2009, cannot be resolved until Direct Access is updated
         to PeopleSoft version 9. There is no current timeline for
         the upgrade to take place. The following conditions
         were noted last year and are still open in FY 2010.
         Not all Direct Access failed logon attempts are logged
         or reviewed; and account management audit logs for the
         Direct Access application are not reviewed on a monthly
         basis, which is a requirement set forth within DHS
         Policy.




                     Information Technology Management Letter for the United States Coast Guard 

                                 Component of the FY 2010 Financial Statement Audit 

                                                      Page 35
 

                                                                              Appendix C

                       Department of Homeland Security 

                          United States Coast Guard 

                   Information Technology Management Letter
                              September 30, 2010




                                 Appendix C 


Status of Prior Year Notices of Findings and Recommendations and Comparison to 

     Current Year Notices of Findings and Recommendations at Coast Guard 





 Information Technology Management Letter for the United States Coast Guard 

             Component of the FY 2010 Financial Statement Audit 

                                  Page 36
 

                                                                                               Appendix C

                                 Department of Homeland Security 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2010

                                                                                         Disposition

                                           Description                             Closed       Repeat
  NFR #
CG-IT-09-10      Contractor Background Investigation Weakness                                    10-02
                 Weaknesses with Specialized Role-based Training for Individuals
CG-IT-09-14      with Significant Security Responsibilities                                      10-10
CG-IT-09-23      SAM Audit Log Review Weakness                                                   10-22
CG-IT-09-25      WINS Access Controls Need Strengthening                             X
                 Weaknesses Exist in the Configuration Management Controls Over
CG-IT-09-31      the Scripting Process                                                           10-05
                 Lack of Documented Contractor Tracking System Reconciliation
                                                                                     X
CG-IT-09-32      Procedures
                 Lack of a Consistent Contractor, Civilian, and Military Account
CG-IT-09-33      Termination Process for Coast Guard Systems                                     10-01
CG-IT-09-34      WINS Change Control Weakness                                        X
CG-IT-09-40      Civilian Background Investigation Weakness                                      10-03
CG-IT-09-42      Non-Compliance with FFMIA – Information Technology                              10-24
                 Recertification Weakness within the User Management System
                                                                                     X
CG-IT-09-43      (UMS)
                 FINCEN data center access is not restricted to appropriately
                                                                                     X
CG-IT-09-45      authorized personnel
CG-IT-09-46      Configuration and Patch Management - Vulnerability Assessment       X
CG-IT-09-49      JUMPS Audit Log Review Weakness                                     X
CG-IT-09-50      Audit Trail Weaknesses within the Direct Access Application                     10-28
CG-IT-09-51      Audit Trail Weaknesses within the Global Pay Application            X
CG-IT-09-52      Recertification Weakness within the Direct Access Application                   10-12
                 Security Awareness Issues Associated with the Protection of
CG-IT-09-53      Sensitive Information                                                           10-06




          Information Technology Management Letter for the United States Coast Guard 

                      Component of the FY 2010 Financial Statement Audit 

                                           Page 37
 

                                                                                                               Appendix D

                                 Department of Homeland Security 

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2010


                                                                           2100 second Street. SW, Stop 7101
 u.s. Do"rtmoo'
 Homeland       O~1I1
           S&curity
                                         Corrmandar>t
                                         Un~ed Slates ~$t GlIlIrd          W~",lin~I"f1,   DC 20000-7101
                                                                           St8If Syrr.boJo 00-6
                                                                           Pilon.: (202) ~75--3500
 United States                                                             Fax: \2(2) 475-3930
Coast Guard                                                                Emai: RobertE.Oay@yscg.mil

                                                                           5500
                                                                            FED 24 2011
From             ay, RD, L                                                  Reply to: CG-632
         C     D ,~q-                                                       Attn of:       Bruce Krebs
                                                                                           (202) 47:'i.35R'i
         K.A. Tayto(~ll'llr-­
         COMDT (CO-a)

To:      Mr. Frank Deffer
         Assistant Inspector General
         Information Technology Audits
Subj:    RESPONSE TO INFORMATION TECHNOLOGY MANAGElv1ENT LETTER FOR
         THE U.S. COAST GUARD COMPONENT OF THE FISCAL YEAR 2010 DHS
         INTEGRATED AUDIT

Ref:     (a) DHS OIG Memo dtd 14 Feb 2011

1. In response to reference (a), thank you for the DHS Office of the Inspector General's (010)
   thorough, independent review of the general Information Technology (IT) oontrols associated
   with the USCG financiaJ processing envirorunem, IT infrastructure, and overall secUrity
   program. This process, combined with other proactive activities, helps the USCG improve
   its Information Security (INFOSEC) posture.

2. The   oro identified several conditions and findings that require corrective actions by the
   USCG. The USCG concurs with the basis for the conditions and findings that were
   docwnented in the FYlO IT Notice of Findings and Recommendations (NFRs) and
   summarized within the IT Management Letter. Specific details of those findings, and their
   potentil11 impl1CfS, will be discllssed el1rly in the FYI I audit during the prior year's review
   process.

3. Duling the course of the audit, the USCG conducted a series of root cause analyses and
   determined the most appropriate merhod(s) for addressing identified weaknesses based upon
   system capabilities and resources. The USCG concinues to implement and execute corrective
   !:lctiom> to alldn:::;s the: wulc:rlying condilions and findings to mitigate risk and improve
   !';ecllrity. The.<;e corrective actiom (Le., 'Plan!'. of Action and Mi1e~j)ne." (POA&M.<;,)) I1Te
   developed, monitored, and reported via the DHS Trusted AgentFISMA (TAF) 1001. FYIO
   IT NFR remediation is overseen by the USCG CIO's Office (CG-6), with the exception of IT
   NFR CG-IT-IO-05 (scripts) which is led by the USCG CFO's Office (CG-8).

4. With respect 10 the Material Weakness associated with IT NFR 10-05, the USCG has
   estaUli~he<l a t"'lUli to a<ldr",s~ the loot IVaUS"'~ assuo.;iated with Couli.g,uratiou Mauagt:lllt:ut
   Controls Over the Scripting Process. The NFR material weakness is based on the financial



        Information Technology Management Letter for the United States Coast Guard 

                    Component of the FY 2010 Financial Statement Audit 

                                         Page 38
 

                                                                                          Appendix D

                               Department of Homeland Security 

                                  United States Coast Guard 

                           Information Technology Management Letter
                                      September 30, 2010


SUBJ: RESPONSE TO INFORMATION TECHNOLOGY MANAGEMENT                                5500
      LETTER FOR THE U.S, COAST GUARD COMPONENT OF THE
      FISCAL YEAR 2010 DHS INTEGRATED AUDIT                                       FEB 24 2011


   impact of the scripts, related to Internal Controls Over Financial Reporting (ICOFR). In
   addition, there is still some remediation work underway with IT general controls with script
   testing requirements, environment, and the logging process.

5. The USCG understands the need to continuously improve IT security opeThtions and has
   demonstrated this commitment by proactively seeking ways to improve controls governing
   the script process, T:.1e majority of the USCG system-oriented IT NFRs will be mitigated as
   they were identified during the audit or early within FYIl. The USCG looks forward to
   workillg with the DRS OIG during the FYI 0 audit, where we a.1ticipate confirmation of our
   corrective action approach through measurable, t,mgible results.


Copy:   (G-63
        (G-65
        (G·84
        CG·85




        Information Technology Management Letter for the United States Coast Guard 

                    Component of the FY 2010 Financial Statement Audit 

                                         Page 39
 

                     Department of Homeland Security 

                        United States Coast Guard
 

                 Information Technology Management Letter
                            September 30, 2010

          Report Distribution

          Department of Homeland Security

          Secretary
          Deputy Secretary
          General Counsel
          Chief of Staff
          Deputy Chief of Staff
          Executive Secretariat
          Under Secretary, Management
          Commandant, USCG
          DHS Chief Information Officer
          DHS Chief Financial Officer
          Chief Financial Officer, USCG
          Chief Information Officer, USCG
          Chief Information Security Officer
          Assistant Secretary for Office of Policy
          Assistant Secretary for Office of Public Affairs
          Assistant Secretary for Office of Legislative Affairs
          DHS GAO OIG Audit Liaison
          Chief Information Officer, Audit Liaison
          USCG Audit Liaison

          Office of Management and Budget

          Chief, Homeland Security Branch
          DHS OIG Budget Examiner

          Congress

          Congressional Oversight and Appropriations Committees, as appropriate




Information Technology Management Letter for the United States Coast Guard 

            Component of the FY 2010 Financial Statement Audit 

                                 Page 40
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
